4

0'°S

SUPREME COURT OF THE UNITED STATES

CHRISHMA HUNTER SINGHDERE
Petitioner

-j

Vs.
THE STATE OF CALIFORNIA

FILED
NOV 0. h 2020
suprem^FcTourtLu

sK

Respondent
On Petition for a Writ of Certiorari to the United States Supreme Court

PETITION FOR A WRIT OF CERTIORARI
C.H.SINGHDEREWA
808 W ALTADENA DRIVE ALTADENA CA
TELEPHONE:

1 209 782 7236

EMAIL:starhunterceo@hotmail.com
In Propria Persona

deceived
NOV f2 20{>0

I.

Question Presented

Is the State of California denying a citizen of the United States of America their
constitutional right to representation by refusing to acknowledge a defendants
Motion to Appear while entering motions, pleas and judgments against them?

2

II.
Ij

Table of Contents

Question Presented....... .

2

II. Table of Contents...................

3

III.

4

Table of Authorities......... .

IV. Petition For Writ of Certiorari

5

V. Jurisdiction........................ ......

5

VI. Constitutional ISSUES PRESENTED FOR REVIEW

6

VII. STATEMENT OF THE CASE.................. ..................

9

VIII. Reasons for Granting This Writ

10

IX.

11

CONCLUSION

3

,

III.

Table of Authorities
Cases

IV.

United States v. Hernandez, 203 F.3d 614, 623-24 (9th Cir.2000)

7

V.

Faretta v California (1975) 42 U.S. 806)

7

VI.

United States v. Arlt (1994). 41 9th Circuit

7

VII.

Gondinez v Moran (1993) 509 U.S. 389

7

4

IV. Petition For Writ of Certiorari
CHRISHMA HUNTER SINGHDEREWA, an Appellant in the California Supreme
Court No. S264331, resident of the State of California, citizen of the United States of
America, hereby petitions this Court for a writ of certiorari to grant review of this
decision of the California Supreme Court.
The California judgment was, filed on October 14th, 2020 reviewing the Los Angeles
Court of Appeal for the 2nd Appellate District, Division of Misdemeanors, filed on
August 11th, 2020 which denied his Writ of Mandamus on August, 27th 2020 and
effectively his Appeal for Representation in Trial court matter 9PD25602.
V. Jurisdiction
A right to representation is a constitutional matter and therefore is within the
jurisdiction of this Court. The Petitioner proposes this matter to be highly relevant
and urgent to the American people. California refusing representation to a defendant
is unconstitutional and a very timely discussion.

5

VI. Constitutional Issues Presented For Review
1. The 6th amendment Constitutional Right to Representation governed by the
US Constitution is under assault in California. The 6th Amendment as made
applicable to the States by the Fourteenth guarantees that a defendant in a
state criminal trial has an independent constitutional right of self­
representation and that he may proceed to defend himself without counsel
when he voluntarily and intelligently elects to do so. The US Court of the
United States must clarify the administration of the Farretta ruling and
determine immediately whether a trial court in the State of California can
deny an intelligent, unequivocal, informed and timely California defendant
fighting for his liberty the Right to Representation. There is no entitlement
more extraordinary in this unique times then the right to representation. In a
time when the very nature of a lifes worth is called into question throughout
this great state only the application of law and representation can make
recompense.
2. Does the STATE OF CALIFORNIA decision to dismiss and therefore uphold
the Trial Courts Court Order on 10/01/2019 entering a Not Guilty Plea on
behalf of the Defendant despite motion to Appear Pro Se in the Docket and
Ordering a Farretta Waiver despite Defendants Motion to Appear Pro Se err
by forcing the petitioner against his will to accept a state-appointed Judge as
his representative and denying his request to conduct his own defense? Does
not this right to representation qualify as an entitlement of extraordinary
relief?
3. Is it constitutionally legal for a Trial Court Judge in the State of California to
act as a defendants counsel and enter a plea of Not Guilty for that defendant
despite his repeated demands for timely, voluntary, unequivocal and
intelligent representation? Does the court not deem this right to representation
an inalienable one and an entitlement of extraordinary relief?

6

4. Does this involuntary plea entered by the Trial Court Judge and affirmed by
the Appeal Courts dismissal conflict with the decision in in the US v
Hernandez? (United States v. Hernandez, 203 F.3d 614, 623-24 (9th Cir.2000)
5. Did this involuntary plea entered by the Trial Court Judge and affirmed by the
Appeal Courts impose unreasonable constraints on the petitioners decision
making process? United States v. Hernandez, 203 F.3d 6l4, 623-24 (9th
Cir.2000)
6. Is it constitutionally legal for a Trial Court in the State of California to proceed
with trial against a defendant despite his repeated demands for timely,
voluntary, unequivocal and intelligent representation? Does the constitutional
right to representation qualify as an entitlement of extraordinary relief when
denied?
7. Is it constitutionally legal for a Trial Court Judge in the State of California to
enter an involuntary plea on behalf of a defendant despite his repeated
demands for timely, voluntary, unequivocal and intelligent representation?
8. Does the STATE OF CALIFORNIA decision to dismiss and therefore uphold
the Trial Courts Court Order on 10/01/2019 entering a Not Guilty Plea on
behalf of the Defendant despite motion to Appear Pro Se in the Docket and
Ordering a Farretta Waiver despite Defendants Motion to Appear Pro Se
conflict with the Court of Appeals decision in Faretta v California or US v Arlt?
(Faretta v California (1975) 42 U.S. 806) United States v. Arlt (1994). 41 9th
Circuit)
9. Does the STATE OF CALIFORNIA decision to dismiss and therefore uphold
the Trial Courts Court Order on 10/01/2019 entering a Not Guilty Plea on
behalf of the Defendant despite motion to Appear Pro Se in the Docket and
Ordering a Farretta Waiver despite Defendants Motion to Appear Pro Se
conflict with the Supreme Courts decision in Godinez v Moran stating that if a
defendant is competent to stand trial they are competent to represent
themselves? (Gondinez v Moran (1993) 509 U.S. 389). Is not this writ of
mandamus the opportunity for the Appellate system to correct this lower
7

courts erroneous denial of the Petitioners extraordinary constitutional
entitlement?
10. Does the STATE OF CALIFORNIA decision to dismiss and therefore uphold
the Trial Courts Court Order on 10/01/2019 entering a Not Guilty Plea on
behalf of the Defendant despite motion to Appear Pro Se in the Docket and
Ordering a Farretta Waiver despite Defendants Motion to Appear Pro Se
conflict with the Supreme Court opinion in Godinez v Moran forbidding any
attempt to measure a defendants competency to waive the right to counsel by
evaluating his right to represent himself? (Gondinez v Moran (1993) 509 U.S.
389)
11. Does the STATE OF CALIFORNIA decision to dismiss and therefore uphold
the Trial Courts Court Order on 10/01/2019 entering a Not Guilty Plea on
behalf of the Defendant despite motion to Appear Pro Se in the Docket and
Ordering a Farretta Waiver despite Defendants Motion to Appear Pro Se
conflict with the numerous Supreme Court opinions reaffirming a defendant’s
right to represent themselves? Keen, Arlt, Robinson, Kimmel, Wadsworth,
Crowhurst, Audette, Fernandez, Savage v Estelle etc.? Does the constitutional
right to representation qualify as an entitlement of extraordinary relief?
12. The STATE OF CALIFORNIA has erred in dismissing this substantive appeal
prior to receiving the Trial Court transcripts.
13. The STATE OF CALIFORNIA has erred in dismissing this substantive appeal
for the application of the Bill of Rights when the Petitioner has shown clear
need for extraordinary relief.
14. The STATE OF CALIFORNIA has erred in dismissing this writ of mandamus
and refusing to correct the errors of the lower Supreme Court of Appeals
decision to deny the Petitioner access to a fair trial.

8

VII. Statement of the Case

The petitioner petitioned the California 2nd District Court of Appeals for a Writ of
Mandamus on August 11th, 2020 attached as Exhibit B.
On the 28th August 2020 the petitioner received a denial the Appellate Court stating
he had not demonstrated need extraordinary relief.
The petitioner submitted a Petition for Review directly with the California Supreme
Court on 9/8/2020
On the 18th October 2020 the petitioner received a denial the California Supreme
Court absent explanation.
The petitioner continues to seek the Extraordinary right to representation today
11/04/2020. Without this right the Petitioner may lose his life, liberty, happiness
and perhaps most importantly his honor.

9

VIII. Reasons for Granting This Writ
I

THIS COURT SHOULD GRANT REVIEW TO RESOLVE THE CONFLICT
BETWEEN THE OPINION OF THE STATE OF CALIFORNIA CASE WITH THE
OPINION OF THE COURT OF APPEAL IN THE UNITED STATES VS KEEN
(19961. ARLT (19771. ROBINSON (19731. KIMMEL (19821. WADSWORTH (1987).
CROWHURST (19801. AUDETTE (2019)AND FARETTA (19751
A grant of review in this case is necessary to secure uniformity of decision, within
the meaning of Rule 8.500(b), between the opinion in this case and the conflicting
opinion of the Court of Appeal for the Second District in THE UNITED STATES VS
KEEN (1996). ARLT (1977). ROBINSON (19731. KIMMEL (1982). WADSWORTH
(1987). CROWHURST (1980). AUDETTE (2019)AND FARETTA (19751
II
THIS COURT SHOULD GRANT A REVIEW TO SETTLE THE
IMPORTANT AND RECURRING QUESTION WHETHER DENIAL OR
SELF-REPRESENTATION UNDER FARETTA v CALIFORNIA (1975) CAN
EVER BE DENIED WHEN MADE INTELLEGENTLY, TIMELY,
UNEQUIVOCABLYAND VOLUNTARILY AND WHETHER THIS
ETITLEMENT IS WORTHY OF EXTRODINAIRY RELIEF WHEN DENIED
The direction to the Superior Court of Pasadena must be clarified: Does the
Petitioner have a Substantive Right to Representation as guaranteed by the
US Constitutions Bill of Rights and does the denial of this right entitle the
Petitioner to Extraordinary Relief.

10

IX.

CONCLUSION

The Petitioner is being denied his constitutional right to representation by a court in
Los Angeles. This Substantive matter is a severe violation of the petitioner
extraordinary, constitutional right to representation. This substantive right must not
wait till sentencing has the ability to destroy this citizens reputation, family and
employment. This potential to do harm to life, liberty and happiness is an
extraordinary concern to the state warranting relief and this courts review as the
events of this year have proven only the just application of law can restore the public
trust. The Substantive right to self-representation must be protected when filed and
requested voluntarily, timely and unequivocally. The failure to guarantee the right
to representation during a time of turmoil and unrest can and will make matters
worse.

DATE:___ 11/03/2020.

Respectfully submitted,
C.H. Singhderewa
Counsel Pro Se
808 W Altadena
Altadena, CA
91001
Telephone: 209 782 7236
Email: starhunterceo@hotmail.com
11

